HHS/OIG, Audit -"Review of the Services Related to the Placement of Arterial Stents,"(A-06-04-00092)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Services Related to the Placement of Arterial Stents," (A-06-04-00092)
December 9, 2005
Complete
Text of Report is available in PDF format (445 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit objective was to determine whether 28 paid Medicare claims processed by Mutual
of Omaha (Mutual) in Texas for outpatient stent-placement services provided in calendar year
2002 were:  (1) reasonable, necessary, and allowable under Medicare rules; and (2) properly
coded.  We found that a total of 2 claims from 2 providers were overpaid by a total
of $4,109.  These errors may have occurred because the providers did not have procedures
in place to ensure that the services for which they billed met Medicare requirements.  We
recommended that Mutual recover the $4,109 of overpayments and provide education to these
providers to ensure that the claims they submit for reimbursement meet Medicares requirements.  Mutual
generally agreed with our findings and recommendations, but did not agree that one of the
Healthcare Common Procedure Codes should be denied.